   August 9, 2002




Security
Allegations Concerning the
Management and Business Practices
of the Defense Security Service
(D-2002-138)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits contact Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of of each writer and caller is fully protected.




Acronyms

ASD (C3I)             Assistant Secretary of Defense, Command, Control,
                        Communications and Intelligence
DSS                   Defense Security Service
OIG                   Office of the Inspector General
TDY                   Temporary Duty
          Office of the Inspector General of the Department of Defense
Report No. D-2002-138                                                 August 9, 2002
 (Project No. D2002AD-0041)

           Allegations Concerning the Management and Business
                  Practices of the Defense Security Service

                                Executive Summary

Who Should Read This Report and Why? Managers with oversight responsibility and
personnel working in the Defense Security Service should read this report to obtain
information about management changes and the rationale for those changes.

Background. This report is the first of two reports that discuss allegations concerning
the mismanagement and business practices of the Defense Security Service. The Defense
Security Service conducts personnel security investigations and investigations of
unauthorized disclosure of classified information for DoD Components and their
contractors and, as directed by the Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence), for other Government departments and agencies.
The Defense Security Service also provides education, training, and security awareness to
Government organizations and industry. This report is in response to an anonymous
letter to the Assistant Secretary of Defense (Command, Control, Communications, and
Intelligence), the Office of the Inspector General of the Department of Defense, and other
Government officials alleging mismanagement and misconduct at the Defense Security
Service. The Director, Defense Security Service, who received a copy of the allegations,
requested that the Office of the Inspector General of the Department of Defense evaluate
the allegations.

Results. The audit did not substantiate the allegations that the Defense Security Service
was mismanaging headquarters personnel and its management structure, facilities,
management reorganizations, personnel assignments and discipline, or its standards and
evaluation and quality management functions. We deferred the evaluation of the
Acquisition and Augmentation Division and contracting procedures because of an
ongoing investigation. We started an audit in April 2002 to evaluate the contracting and
will report on it separately.

Management Comments. We provided a draft of this report on June 28, 2002. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents
Executive Summary                         i

Background                               1

Objectives                               3

Finding
     Management and Business Practices   4

Appendixes
     A. Scope and Methodology             9
     B. Prior Coverage                   10
     C. Report Distribution              11
Background
    Letter of Allegations. This report is the first of two reports that discuss
    allegations concerning the mismanagement and business practices of the Defense
    Security Service. In October 2001, the Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) [ASD (C3I)], the Office
    of the Inspector General of the Department of Defense (OIG DoD), and other
    Government officials received an anonymous letter alleging mismanagement and
    misconduct at the Defense Security Service (DSS). The Director, DSS, who
    received a copy of the allegations, requested that the OIG DoD evaluate them.

    The letter made several allegations. The following summary statements appeared
    in the opening paragraph of the letter with more specific allegations and
    accompanying data in numbered paragraphs following the opening statements:
               The     department   [DSS]      is   not    functioning,     due     to
               mismanagement….DSS is an essential part of the security for our
               nation but the DSS workforce is unable to carry out their duties due to
               gross misconduct within the agency. Violations of laws, rules, and
               regulations are common practice; abuse of authority is a daily event;
               and mismanagement of government funds and personnel resources is
               rampant.

    The allegations were grouped as follows: the Case Control Management System,
    misconduct, and mismanagement. Offices within the OIG DoD took actions on
    the three groups of allegations as described below:

            Case Control Management System. This group included alleged
    excessive costs and defects in the Case Control Management System. The Case
    Control Management System was the subject of earlier audits and studies (see
    Appendix B for prior coverage). The OIG DoD has open recommendations from
    reports on the Case Control Management System, as shown below, so it was
    decided to do no additional work.
           •   GAO Report No. NSIAD-00-12 DoD Personnel, “Inadequate
               Personnel Security Investigations Pose National Security Risks,”
               October 1999, and Inspector General, DoD, Report No. D-2000-111,
               “Security Clearance Investigative Priorities,” April 5, 2000,
               recommended that DSS prioritize its personnel security
               investigations. The prioritization depended on using the Case
               Control Management System, but was delayed waiting for an updated
               version to be fielded. There was also a significant increase in
               requests for priority personnel investigations.

           •   Inspector General, DoD, Report No. D-2000-134, “ Tracking
               Security Clearance Requests,” May 30, 2000, recommended that all
               investigative cases be tracked from request through final disposition.
               Adding this capability to the Case Control Management System was
               deferred in favor of higher priority improvements to the system.


                                             1
            Allegations of Misconduct. This group included alleged misconduct of
    the Director, DSS, and the investigation was assigned to the Office of
    Departmental Inquiries. Departmental Inquiries reported its results, independent
    of the audit results, through its established channels.

           Allegations of Mismanagement. This group included alleged
    mismanagement of DSS and was assigned to the Office of the Assistant Inspector
    General for Auditing of the Department of Defense. The audit team identified the
    following specific subjects from the numbered paragraphs of the letter alleging
    mismanagement:

                   •   headquarters personnel and management structure;

                   •   facilities for DSS headquarters and other DSS functions;

                   •   management reorganizations and their effects;

                   •   personnel assignments and disciplinary procedures;

                   •   Standards and Evaluation, and Quality Management Division;
                       and the

                   •   Acquisition and Augmentation division, and contracting
                       procedures.

    During the audit, we deferred the evaluation of the Acquisition and Augmentation
    Division and contracting procedures because of an ongoing investigation. We
    resumed that portion of the audit in April 2002 and will report on it separately.

    The DSS Mission. The ASD (C3I) provides direction, authority, and control for
    the DSS, which provides security services to the DoD. The DSS mission is to
    provide a single, centrally located investigative service to conduct personnel
    security investigations and investigations of unauthorized disclosure of classified
    information within the 50 states, the District of Columbia, and the
    Commonwealth of Puerto Rico for DoD Components and their contractors and, as
    directed by the ASD (C3I), for Government departments and agencies. In
    addition, DSS provides education, training, and security awareness to DoD and
    other Government organizations and industry.

    The DSS Management Team. On June 7, 1999, the ASD (C3I) modified the
    headquarters management team by appointing an acting director for DSS. On
    November 8, 1999, the ASD (C3I) made that appointment permanent.

Objectives
    The primary audit objective was to determine whether allegations regarding
    management of DSS had merit. Specifically, we evaluated allegations regarding
    headquarters personnel and management structure; facilities for DSS headquarters
    and other DSS functions; management reorganizations and their effects; personnel
    assignments and disciplinary procedures; and the Standards and Evaluation, and

                                         2
Quality Management Division. We deferred evaluation of the Acquisition and
Augmentation Division and contracting procedures and will report those results
separately. See Appendix A for a discussion of the audit scope and methodology.
See Appendix B for prior coverage related to the audit objectives.




                                   3
           Management and Business Practices
           Although the audit verified some information in the allegations, the audit
           did not substantiate allegations that DSS was mismanaging headquarters
           personnel and its management structure; facilities for its headquarters and
           other DSS functions; management reorganizations and their effects;
           personnel assignments and disciplinary procedures; and the Standards and
           Evaluation, and Quality Management Division. The results for the
           specific allegations and accompanying data appear below.

Headquarters Personnel and Management Structure
    Allegation. The Director tripled headquarters staff from the June 1999 level and
    added many bureaucratic layers. Specifically, the headquarters staff increased
    from about 100 to 375, and the management layers increased to an extent that
    decisions were untimely or unmade.

    Audit Results. We did not substantiate the allegations concerning headquarters
    personnel and the management structure. The number of personnel fitting the
    definition of headquarters staff, as established in DoD Directive 5100.73, “Major
    Department of Defense Headquarters Activities,” May 13, 1999, was 154 full-
    time equivalents in FY 1999. The number of headquarters staff full-time
    equivalents in FY 2001 was 148. According to organization charts, the layers of
    management increased by two layers from the previous director’s tenure. The
    number of headquarters staff and the layers of management structure did not
    violate laws or regulations. Public law and regulations do not establish detailed
    organizational structure such as an ideal number of management layers or ideal
    ratios of headquarters to total staff. An FY 2000 public law, the FY 2000 Defense
    Authorization Act, did set goals for headquarters personnel reductions. The DSS
    budget estimates for FY 2003 show a 16.9 percent reduction of headquarters
    personnel from FY 1999 staffing levels. That reduction is 1.9 percent more than
    the target 15 percent reduction set in the FY 2000 Defense Authorization Act.

DSS Headquarters and Other Facilities
    Allegation. Since June 1999, management dispersed headquarters staff to
    multiple locations, resulting in no one knowing where headquarters is located.
    In addition, DSS management wasted millions of dollars on renovations, and
    spent resources unnecessarily traveling among its multiple locations.

    Audit Results. We substantiated several points from the allegation but did not
    arrive at the conclusion that the conditions resulted solely from the actions of the
    current director, that multiple locations had a significant negative effect on costs
    or operations, or that management wasted millions of dollars on renovations.

           Location of Headquarters Staff. The DSS headquarters staff is
    dispersed among three locations: Braddock Place, Alexandria, Virginia; Fort
    Meade, Maryland; and Airport Square 10, Linthicum, Maryland. The DSS
    Academy and Maryland field office occupy a fourth building, referred to in the
                                          4
    letter of allegations as a headquarters site, at Airport Square 6, Linthicum,
    Maryland. DSS occupied the building at Braddock Place since March 1993 and
    buildings at Airport Square (Airport Square 10 and Airport Square 11) since June
    1996. The building at Fort Meade, a 1995 Base Realignment and Closure project,
    opened in May 2001. In July 2001, DSS vacated the building at Airport
    Square 11, also referred to in the letter of allegations as a headquarters site.

    The move into the Fort Meade facility resulted in some conflicting information
    about the location of headquarters. The Director and approximately
    450 employees moved to the Fort Meade facility. However, according to the
    Director and the management staff, the headquarters mailing address and
    designation remained at Braddock Place, although after the move to Fort Meade,
    the DSS Web site stated that headquarters had moved to Fort Meade. We did not
    identify any significant effect from the conflicting information about the location
    of headquarters.

            Renovations to Facilities. The renovations at Airport Square 10 and
    Airport Square 6 were justified, though imperfectly documented. DSS renovated
    Airport Square 10 at a cost of about $120,000 and Airport Square 6 at a cost of
    about $1.6 million. The renovations at Airport Square 6, more descriptively a
    conversion to other use, took place over 9 projects and 3 years. DSS did not
    document the lease or the renovations of the facility at Airport Square 6 in an
    economic analysis package to support its decision. As questions arose,
    management provided pieces of data and information that they used in arriving at
    the decision to lease and renovate Airport Square 6. Those pieces of data and
    information collectively supported the space requirements and the conversion of
    space to classrooms, but they did not provide a formal economic comparison of
    previously existing accommodations to those proposed or the reasons for
    choosing Airport Square 6.

    Costs of Local Travel. We were unable to determine the costs of traveling
    among the various DSS locations because local area travel was not maintained
    separately in the financial records. We interpreted the allegation of wasteful
    travel as a condition introduced by the Director, but could not make comparisons
    with local travel from other directors’ tenures because of the recordkeeping
    limitations.

Management Reorganizations and Their Effects
    Allegation. The Director reorganized DSS 10 times within a 2-year period, with
    another reorganization imminent. Each of the reorganizations moved resources
    from the field to headquarters. The constant reorganizations caused confusion in
    the field and were perceived as a continuous employment threat that significantly
    impeded productivity.

    Audit Result. We substantiated that multiple changes to the organizational
    structure took place over a 2-year period and that some personnel resources




                                         5
    changed location. However, we did not conclude that the organizational changes
    had a negative effect on the organization overall or that the changes impeded
    productivity.

    The Director, DSS made seven structural and five personnel assignment changes
    from 1999 through 2001. In March 2002, as part of the initiative to transform the
    DoD, DSS management again changed its structure. The structural changes
    included establishing five operational regions, organizing functions into six major
    directorates, setting up the Standards and Evaluation, and Quality Management
    Division and the Acquisition and Augmentation Division, and creating additional
    staff elements.

    We did not consider personnel reassignments as reorganizations. Personnel
    reassignments included relocating three Regional Director positions to Linthicum,
    outside their regions. However, the overall structure of the DSS and the demand
    for its services necessitate geographic separation of investigators and industrial
    security representatives from supervisory staff.

    Supervisory staff from two regions visited reported that changes in the
    organizational structure did not affect productivity. One perspective offered was
    that the changes were actually an incremental reorganization rather than multiple
    reorganizations. According to discussions with the Office of Personnel
    Management and comparisons of regulatory requirements to actual procedures in
    relocating the Professional Development Administrators to Linthicum, Maryland,
    DSS management adhered to the rules to notify personnel of realignments and
    changes in duty station. In creating new positions and restructuring the
    organization, DSS made personnel changes to fill new positions. Those changes
    sometimes meant moving personnel around within the organization, including
    moving personnel from field locations to headquarters locations.

Managing Personnel Assignments and Disciplinary Procedures
    Allegation. Supervisors and field managers have lost control over resources in
    the areas of investigator assignments, Deputy Regional Director rotations to
    headquarters, and involvement in disciplinary actions Loss of control over
    investigator resources resulted in a gross waste of funds for temporary duty travel
    (TDY), which management could not justify with valid data, to accomplish the
    personnel security investigations program. Another loss of control that led to
    wasted funds was the headquarters program to rotate Deputy Regional Directors
    for Investigations for a 3-week duty to perform unnecessary tasks, costing
    taxpayers more than $3,000 per assignment. Yet another loss of control resulted
    from DSS efforts to establish a council to manage employee disciplinary
    problems rather than supervisors and managers.




                                         6
    Audit Result. We substantiated that DSS used TDY assignments to accomplish
    personnel security investigations and rotated Deputy Regional Directors to
    headquarters for 3-week tours of duty. We did not substantiate the claim that a
    council would replace supervisory responsibility for disciplinary actions. Further,
    we did not conclude that the TDY for the investigators or the rotational
    assignments for the Deputy Regional Directors was unnecessary.

    DSS management used TDY assignments within the Personnel Security
    Investigations Program to alleviate the investigative backlogs in the DSS field
    offices, primarily in the high-need areas of Fairfax, Virginia, and San Diego,
    California. Those backlogs were supported by data that showed estimated
    resource requirements compared to the time available and the number of leads
    pending for each of the five regions and the individual field offices. Although
    personnel resources are ultimately controlled by top management, the Regional
    Directors and Deputy Regional Directors provided input to top management on
    selecting and managing TDY assignments. Management considered TDY
    assignments more practical than a permanent change of station because
    investigative needs changed frequently and unpredictably, and investigators might
    find other employment rather than move.

    Deputy Regional Directors were serving 3-week rotational duty at headquarters at
    a cost between $2,500 and $3,100 per 3-week assignment. DSS management
    initiated the rotational assignments as a way to augment staff as well as to give
    the Deputy Regional Directors an opportunity to observe the daily operations at
    headquarters. Although headquarters became fully staffed after the first Deputy
    Regional Director’s assignment, the assignments continued so that the Deputy
    Regional Directors could gain headquarters experience. DSS headquarters
    management believed that the rotational assignments achieved their goals of
    providing a headquarters experience, exposing them to decision makers for career
    progression, and accomplishing tasks.

    DSS management did not establish a council to manage employee disciplinary
    problems. DSS management amended the DSS policy for disciplinary problems,
    which shifted the responsibility for proposing and deciding actions to higher
    levels of management, but left the immediate supervisor still responsible for
    initiating disciplinary review and action.

Standards and Evaluation, and Quality Management Division
    Allegation. The Standards and Evaluation, and Quality Management Division
    duplicates supervisory reviews, lacks direction, is unproductive, and interferes
    with field productivity.

    Audit Result. We did not substantiate the allegation. The Director, DSS
    established the Standards and Evaluation, and Quality Management Division in




                                         7
    response to an October 1999 General Accounting Office report. The report
    recommended that DSS:

               Establish formal quality control mechanisms to ensure that Defense
               Security Service or contracted investigators perform high-quality
               investigations, including periodic reviews of samples of completed
               investigations and feedback on problems to senior managers,
               investigators, and trainers.

    The purpose of the Standards and Evaluation, and Quality Management Division
    is to evaluate all agents who perform personnel security investigations and
    industrial security representatives once a year to ensure that the agents and
    representatives consistently meet their standards. From May 2000 through
    September 2001, the Standards and Evaluation, and Quality Management
    Division conducted 1,416 evaluations for the Personnel Security Investigations
    Program and, from August 2000 through September 2001, they conducted
    305 evaluations for the Industrial Security Program. The Deputy Regional
    Directors from the northeastern and western regions and the Regional Director
    from the western region stated that they believed the Standards and Evaluation,
    and Quality Management Division was beneficial.

Acquisition and Augmentation Division and DSS
  Contracting Procedures
    Allegation. The Acquisition and Augmentation Division duplicates investigative
    work that the ASD (C3I) diverted to the Office of Personnel Management. In
    addition, DSS continues to award contracts even though none of the contractors
    met their investigative goals.

    Audit Result. We deferred evaluating the Acquisition and Augmentation
    Division and its contracting procedures because of an ongoing investigation.
    After we evaluate the division and its procedures, we will report the results
    separately.




                                           8
Appendix A. Scope and Methodology
Scope
    Work Performed. We performed audit work to examine allegations made in an
    October 2001 anonymous letter to the ASD (C3I), the OIG DoD, and other
    Government officials. We discussed the allegations with staff at DSS
    headquarters and field personnel in the northeastern and western regions. We
    selected the northeastern and western regions so that we could interview
    personnel who were affected by the actions described in the allegations and who
    were located physically distant from the headquarters activities. We also
    interviewed personnel at the Office of Personnel Management, the offices of the
    Under Secretary of Defense (Comptroller), the ASD (C3I), the Directorate for
    Organization and Management Planning, the U.S Army Corps of Engineers, and
    the 11th Contracting Squadron, U.S. Air Force.

    Limitations to Scope. We did not review the management control program
    because the audit scope was limited to the allegations of mismanagement.
    Additionally, we deferred a review of allegations regarding the Acquisition and
    Augmentation Division and its contracting procedures because of a Defense
    Criminal Investigation Service ongoing investigation of the area.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Infrastructure Management high-risk area. DoD defines infrastructure as
    those organizations that provide support services to mission programs, such as
    combat forces, and that primarily operate from fixed locations.

Methodology
    We identified and analyzed applicable laws and regulations for each of the six
    allegation categories. We reviewed mission statements and organizational charts,
    and DSS policies on disciplinary procedures. In addition, we reviewed
    documentation on facilities requirements and available space, and cost and
    justification of TDY for personnel security investigations staff. The documents
    we reviewed were dated from March 1988 through March 2002.

    Use of Computer-Processed Data. We did not rely on computer-processed data
    to perform this audit.

    Audit Dates and Standards. We performed the audit from November 2001
    through June 2002 in accordance with generally accepted government auditing
    standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.



                                        9
Appendix B. Prior Coverage
    During the last 5 years, the General Accounting Office and the Inspector General
    of the Department of Defense have issued eight reports discussing the Defense
    Security Service management. Unrestricted General Accounting Office reports
    can be accessed over the Internet at http://www.gao.gov. Unrestricted Inspector
    General of the Department of Defense reports can be accessed at
    http://www.dodig.osd.mil/audit/reports.

General Accounting Office
    GAO Report No. NSIAD-00-224 Defense Management, “Status of Efforts to
    Redefine and Reduce Headquarters Staff,” September 2000

    GAO Report No. NSIAD-00-12 DoD Personnel, “Inadequate Personnel Security
    Investigations Pose National Security Risks,” October 1999

Inspector General of the Department of Defense (IG DoD)
    IG DoD Report No. D-2001-065, “DoD Adjudication of Contractor Security
    Clearances Granted By the Defense Security Service,” February 28, 2001

    IG DoD Report No. D-2001-019, “Program Management of the Defense Security
    Service Case Control Management System,” December 15, 2000

    IG DoD Report No. D-2001-008, “Resources of DoD Adjudication Facilities,”
    October 30, 2000

    IG DoD Report No. D-2000-134, “ Tracking Security Clearance Requests,” May
    30, 2000

    IG DoD Report No. D-2000-111, “Security Clearance Investigative Priorities,”
    April 5, 2000

    IG DoD Report No. D-2000-072, “Expediting Security Clearance Background
    Investigations for Three Special Access Programs” (U), January 31, 2000
    (SECRET) (Limited distribution)




                                       10
 Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Acquisition Reform)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Deputy Assistant Secretary of Defense (Security and Information Operations)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Security Service

Non-Defense Federal Organization
Office of Management and Budget




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          12
Audit Team Members
The Acquisition Management Directorate, Office of the Assistance Inspector General for
Auditing of the Department of Defense prepared this report. Personnel of the Office of
the Inspector General of the Department of Defense who contributed to the report are
listed below.

Mary L. Ugone
Harold C. James
Judith I. Padgett
Bryon J. Farber
Vanessa S. Adams
Paula A. Richardson
Andrew D. Greene
Jacqueline N. Pugh
